           U.S. Department of
                                                                   Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Management Advisory on Registration                                         Date:    January 31, 2014
           of Aircraft to U.S. Citizen Trustees in Situations
           Involving Non-U.S. Citizen Trustors and
           Beneficiaries

  From:    Louis King                                                                      Reply to
                                                                                           Attn. of:    JA-20
           Assistant Inspector General for Financial and
             Information Technology Audits

    To:    Federal Aviation Administrator

           The Department of Transportation (DOT) Office of Inspector General (OIG) is
           providing this advisory to inform you of issues related to our audit 1 report of June
           2013 on the Federal Aviation Administration’s (FAA) Civil Aviation Registry. In
           that audit, we reported that approximately 5,600 of the registrations for aircraft
           owned under trusts for non-U.S. citizens lacked key information, such as the
           identity of trustors and beneficiaries. Without this information, we could not
           complete our work in this area at that time. Because of the significance of the
           matter, we contacted the five trustees with most registrations to obtain the
           information needed to complete this work. As a result, we have identified
           additional concerns regarding the lack of information in the Registry pertaining to
           aircraft owned under trusts for non-U.S. citizens, and FAA’s compliance with
           registration requirements. FAA uses the Registry to process and maintain
           ownership registrations on 350,000 2 private and commercial aircraft. According to
           its regulations, aircraft cannot receive FAA’s certification for safe operation and
           approval for flight without maintaining a valid registration in the Civil Aviation
           Registry. 3

           FAA regulations permit trustees and non-U.S. citizens to register their aircraft by
           setting up trusts. To do this, an aircraft owner (or trustor or grantor) creates an
           agreement to transfer the aircraft’s title to a trustee that is a U.S. citizen. The

           1
             FAA’s Civil Aviation Registry Lacks Information Needed for Aviation Safety and Security Measures, OIG Report
           Number FI-2013-101, June 27, 2013. OIG reports are available on our Web site at: http://www.oig.dot.gov/.
           2
             The number of U.S. civil aircraft registered as of August 2012.
           3
             FAA must ensure that an aircraft presented for airworthiness certification is properly registered (49 U.S.C. § 44704(c)
           and 14 CFR § 21.173).
                                                                                                                 2


trustee—who may be an individual or an organization—registers the aircraft under
his, her, or its name. The agreements we reviewed, however, provide little
substantive information identifying the trustor, beneficiary, or person(s) who can
use the aircraft. The trustor and the beneficiary are frequently the same person. As
we reported in June 2013, Registry records on an estimated 5,600 4 aircraft owned
under trusts for non-U.S. citizens lacked important information, such as the
identity of the trustors and beneficiaries. Because of the significance of this
finding, we noted in our report that we were conducting additional work to assess
the relationships between the trustees and the anonymous beneficiaries.

We have determined that FAA does not have the information it needs on
numerous aircraft owned under non-U.S. citizen trusts, or that this information
may not be readily available. We also determined that FAA does not always
comply with its requirements for registering aircraft owned under these
arrangements. In addition to FAA’s lack of information, some of the trustees we
contacted could not or would not provide the information on the aircraft they own.
Without collecting and maintaining complete and accurate aircraft data, FAA
increases the risk of not meeting its aviation safety mission. For example, FAA
has experienced problems in providing information on these aircraft to foreign
authorities upon request, as required by the Convention on International Aviation
when U.S. registered aircraft are involved in accidents or incidents in foreign
countries. If FAA takes appropriate actions to address the recommendations in our
recent audit of the Civil Aviation Registry, it should be able to correct these
deficiencies. Details of our additional work are included below.

FAA DOES NOT HAVE IMPORTANT INFORMATION ON TRUSTS
REGISTERING AIRCRAFT FOR NON-CITIZENS

As we reported in June 2013, FAA does not have important safety information on
trusts used to register aircraft on behalf of foreign owners. FAA’s policy and
regulations do not require trustees to identify the trustors, beneficiaries, or
operators as a condition of aircraft registration. 5 FAA recently updated its policy
to require trustees to produce this information, but only within 48 hours of an FAA
request. 6 This lack of information on non-U.S. citizen aircraft owners—
information that domestic owners, not registering under trusts, are required to
provide as a condition of registration—prevents FAA and other Registry users
from: (1) knowing who controls or uses these aircraft; (2) determining the
locations of non-U.S. citizens who benefit from these registrations; and (3)
assessing the propriety of the registrations. We found several cases in which

4
  Our 5,600 estimate has a precision of +/-1,027 at the 90-percent confidence level.
5
  The regulations do require trustees to submit copies of documents to the Registry if the trustee and trustor have
executed them.
6
  78 Fed. Reg. 36412 (2013).
                                                                                                                     3


aircraft were operating or registered under questionable and possibly illegal
circumstances and FAA did not have sufficient information to conduct its safety
oversight. For example:

• In January 2012, an FAA inspector was asked to look into a complaint that a
  Boeing 737 aircraft—registered on behalf of a foreign trustor—was operated
  contrary to current U.S. regulations and possibly for illegal revenue. The
  inspector contacted the trustor, but the trustor had leased the aircraft to a rental
  service that based the aircraft in the United Arab Emirates. The trustor was
  unable to provide the inspector with any information about who was flying the
  aircraft.

• In October 2006, a large U.S. bank became trustee of an aircraft on FAA’s
  Registry under a trust on behalf of a trustor that was a Lebanese politician. To
  comply with Federal regulations on financial institutions, the bank had to
  obtain more information on the aircraft’s owner. The trustee discovered that
  the trustor was backed by a well known U.S. Government-designated terrorist
  organization. The trustee resigned, and the trust was dissolved. As a result, the
  aircraft’s registration was cancelled. 7

• The President of a foreign oil corporation previously owned an aircraft
  registered under a trust and sold a large percentage of his organization in
  March 2010 to a company owned by the Government of China. In March 2011,
  the Newsmax internet media outlet reported 8 that the aircraft approached
  Tripoli International Airport with no landing permit just hours before the
  United Nations Security Council met to approve a “no-fly zone” over Libya.

FAA’s new policy that requires trustees to provide the identities and locations of
trustors within 48 hours of FAA’s request does not adequately address this issue.
For example, we found that the five trustees 9 we contacted could not or would not
always make this information available and often not as rapidly as required. We
selected a random sample of 77 out of 5,379 aircraft registered to the 5 trustees
with most registrations. We found 47 of them had aircraft registered on behalf of
non-U.S. citizens. Based on this finding, we estimate that these five trustees have
3,283 aircraft registered on behalf of non-U.S. citizens. 10 We requested
information from the trustees on the identities and locations of foreign owners and
found that the trustees were unable to provide this information for 35 of the
47 owners, or 74 percent. Furthermore, one of the trustees required that we first

7
  The trustee requested FAA immediately cancel the U.S. registration and exported the aircraft to the Isle of Man.
8
  Newsmax, “Wells Fargo Jet Makes Mystery Flight to Libya,” Mar. 22, 2011,
http://www.newsmax.com/kentimmerman/wells-fargo-moammar-gadhafi/2011/03/22/id/390349.
9
  We selected these 5 out of 3,587 trustees because they had the most registrations.
10
   Our estimate of 3,283 has a precision of +/-491 or +/-9.1 percentage points at the 90-percent confidence level.
                                                                                                                    4


issue a subpoena for the information. Additionally trustees that did give us
information took nearly 2 months to do so. Based on this sample, we estimate that
these 5 trustees would not be able to provide this information for 2,445 out of
3,283 registrations. 11

FAA REGISTERS AIRCRAFT THAT DO NOT MEET ITS
REQUIREMENTS

FAA does not always enforce its requirements when registering aircraft. FAA’s
regulations 12 require non-U.S. citizens to have no more than 25 percent of the
power to influence, limit, direct, or remove U.S.-citizen trustees from the trusts,
and consequently from control over the aircraft. However, in our sample of
47 aircraft registered on behalf of non-U.S. citizens from the 5 major trustees, all
of them (100 percent) were registered under trusts that allow the trustors to
remove the trustee. As a result, we estimate 3,283 trusts exceed the limitation on
foreign control specified in FAA’s regulations. 13 Further, 46 out of 47 trusts did
not sufficiently specify the causes for trustee removal or address FAA’s concerns
in this regard. Based on our sample, we estimate that 3,213 14 out of
3,283 registrations do not comply with FAA’s regulations or policy on removing
U.S. citizen trustees, making it difficult for FAA to determine who controls the
aircraft.

FAA policy15 also requires Registry personnel to determine whether trusts
involving non-citizen beneficiaries are governed by U.S. law and to reject those
governed by foreign laws as not eligible for U.S. registration. 16 We selected a
random sample of 68 out of 10,292 aircraft trust registrations and found
10 registered to trusts governed by foreign law. Based on our finding, we estimate
that the Registry contains 1,514 17 aircraft owned under trusts that are governed by
foreign laws. For example, we found aircraft registered to trusts governed by the
laws of the Cayman Islands. In July 2008, the Government Accountability Office
reported that because U.S. regulators have limited means of collecting information
regarding Cayman Island entities, persons intent on breaking U.S. law may use
such trusts to obscure their activities. 18 Trusts governed by foreign laws may also
limit the trustee’s ability to comply with FAA requirements.


11
   Our estimate of 2,445 has a precision of +/-345 or +/-10.5 percentage points at the 90-percent confidence level.
12
   14 C.F.R. § 47.7(c)(2)(iii) and (3).
13
   Our estimate of 3,283 has a precision of –161 or -4.9 percentage points at the 90-percent confidence level.
14
   Our estimate of 3,213 has a precision of -113/+70 or -3.5/+2.1 percentage points at the 90-percent confidence level.
15
   FAA Policy AFS-751, Information Bulletin 10-03, March 16, 2010.
16
   FAA’s policy further states that the trustee of a trust governed by foreign laws may be subject to a court or other
foreign entity with greater than 25 percent power to limit the exercise of his or her authority as trustee.
17
   Our estimate of 1,514 has a precision of +/-7.1 percentage points at the 90-percent confidence level.
18
   Government Accountability Office, Business and Tax Advantages Attract U.S. Persons and Enforcement Challenges
Exist, GAO-08-778, July 24, 2008.
                                                                                                           5


Regulations for registration of aircraft on FAA’s Registry also require that
applications be accepted only when received from individual U.S. citizens,
partnerships of U.S. citizens, or corporations or associations subject to limitations
on foreign control. 19 However, we found that an export credit agency wholly
owned by a foreign government entered into a Delaware Statutory Trust 20
agreement with a trustee employed by a U.S. bank. After reviewing the trust
agreement, FAA’s Aeronautical Center Counsel opined that the trust should be
treated as an “association” for aircraft registration. As a result, the aircraft was
registered to the trust, not the U.S. citizen trustee. It is unclear why FAA
concluded that statutory trusts can be treated as associations rather than traditional
trusts. FAA’s Registry personnel we spoke to were unclear how such registrations
complied with the citizenship requirements.

In each of these instances, FAA Registry personnel were unaware of these matters
because FAA does not have quality control procedures that call for regular
reassessments to identify and remove such registrations. The lack of the
procedures increase the risk that foreign entities that do not meet FAA
requirements will have excessive control over registered aircraft. In addition, the
lack of these procedures in conjunction with the insufficient policy to address the
identification of trustors, beneficiaries, and operators have created a loophole that
limits FAA’s ability to perform its safety oversight and allows situations, such as
those described above, to exist and remain undetected.

Thank you for your attention to these important issues. If you have any questions
regarding this advisory, please contact me at (202) 366-1407, or Joann Adam,
Program Director, at (202) 366-1488.

                                                              #

cc: Chief Information Officer, DOT
    Associate Administrator for Aviation Safety, FAA
    Deputy Assistant Administrator for Information Services and
     Chief Information Officer, FAA
    DOT Audit Liaison, M-1
    FAA Audit Liaison, AAE-100




19
     14 C.F.R. § 47.2.
20
     A statutory trust established under the Statutory Trust Act of Delaware, 12 Del. C. § 3801, et seq.
